                                              OFFICE OF JOB CORPS



Office of Inspector General—Office of Audit




                                              CAREER SYSTEMS DEVELOPMENT
                                              CORPORATION: CONTROLS OVER CENTER
                                              OPERATIONS WERE NOT EFFECTIVE




                                                                            Date: September 30, 2008
                                                                    Report Number: 26-08-001-01-370
U.S. Department of Labor                             September 2008
Office of Inspector General
Office of Audit                                      CAREER SYSTEMS DEVELOPMENT
                                                     CORPORATION: CONTROLS OVER CENTER
                                                     OPERATIONS WERE NOT EFFECTIVE
BRIEFLY…                                             WHAT OIG FOUND
Highlights of Report Number 26-08-001-01-370, to     We observed unsafe or unhealthy conditions at
the National Director, Office of Job Corps.          New Haven. At Laredo, required background
                                                     checks were not conducted for 23 of the 30
WHY READ THE REPORT                                  student applicants tested.

This report discusses unsafe and unhealthy           Also, reported performance was not accurate at
conditions at a Job Corps center operated by         Laredo and New Haven. Student On-Board
Career Systems Development Corporation (CSD).        Strength (OBS) was overstated at Laredo. We
Those conditions placed students and staff at risk   estimate that as many as 27 percent of the
for injury and illness. The report also discusses    students included in OBS should have been
inaccurate performance data reported by two CSD      separated earlier. Vocational completions were
centers.                                             overstated at New Haven. We estimate the
                                                     training records for as many as 46 percent of the
WHY OIG CONDUCTED THE AUDIT                          vocational completions for Program Year 2005
                                                     were not consistent with Job Corps requirements.
The audit objectives were to answer the following
questions:                                           These conditions occurred because CSD controls
                                                     over center safety and performance reporting were
   1. Did CSD ensure compliance with Job             not effective.
      Corps requirements for managing center
      safety programs?                               Nothing came to our attention to indicate that CSD
                                                     did not comply with Job Corps requirements for
   2. Did CSD ensure compliance with Job             managing and reporting financial activity.
      Corps requirements for reporting
      performance?                                   WHAT OIG RECOMMENDED
                                                     We made eight recommendations to the National
   3. Did CSD ensure compliance with Job             Director of Job Corps to require CSD to develop
      Corps requirements for managing and            corporate-level controls and perform on-site
      reporting financial activity?                  monitoring over all centers to identify and correct
                                                     systemic non-compliance with Job Corps safety
This report is a summary of our audit work           and performance reporting requirements. These
conducted at CSD headquarters in Rochester,          recommendations also included requiring CSD to
New York; the Laredo Job Corps Center (Laredo)       identify OBS and vocational completion
in Laredo, Texas; and the New Haven Job Corps        overstatments at other centers and pay any
Center (New Haven) in New Haven, Connecticut.        liquidate damages owed.

READ THE FULL REPORT                                 HOW AUDITEE RESPONDED
                                                     The Office of Job Corps generally concurred with
To view the report, including the scope,             the recommendations. Job Corps provided
methodology, and full agency response, go to:        documentation that CSD established improved
http://www.oig.dol.gov/public/reports/oa/2008/26-    corporate controls over center safety programs
08-001-01-370.pdf                                    and performance reporting. This incuded CSD
                                                     implementing a new quality assurance program.

                                                     Job Corps did not directly state if it would require
                                                     CSD to identify OBS and vocational completion
                                                     overstatments at other centers and pay any
                                                     liquidated damages owed.
                                           U.S Department of Labor – Office of Inspector General




             Career System Development Corporation (CSD) Headquarters
                               Rochester, New York




       Laredo Job Corps Center                    New Haven Job Corps Center
             Laredo, TX                                 New Haven, CT




                       CSD’s 10 Job Corps Center Locations
                                St. Paul                                     Bangor

                                                                                 Cassadaga


                                                                                 New Haven

Sacramento
                                                                      Morganfield
 San Jose
                   San Diego                New Orleans
                               Laredo




                                                      Career Systems Development Corporation
                                                                  Report No. 26-08-001-01-370
               U.S Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                          Career Systems Development Corporation
                                      Report No. 26-08-001-01-370
                                                               U.S Department of Labor – Office of Inspector General




Table of Contents

Executive Summary ...................................................................................................... 1

Assistant Inspector General’s Report ......................................................................... 5

          Objective 1 – Did CSD ensure compliance with Job Corps requirements
             for managing center safety programs?............................................................ 6

          Objective 2 – Did CSD ensure compliance with Job Corps requirements
             for reporting center performance?................................................................. 12

          Objective 3 – Did CSD ensure compliance with Job Corps requirements
             for managing and reporting center financial activity? .................................... 20

Exhibits ........................................................................................................................ 21

          Exhibit 1 Laredo Job Corps Center Program Year 2005 Reported
             Performance Measures Results .................................................................... 23

          Exhibit 2 New Haven Job Corps Center Program Year 2005 Reported
             Performance Measures Results .................................................................... 25

Appendices.................................................................................................................. 27

          A. Background .................................................................................................... 29

          B. Objectives, Scope, Methodology, and Criteria ............................................... 31

          C. Acronyms and Abbreviations ......................................................................... 37

          D. Job Corps Response to Draft Report ............................................................. 39




                                                                              Career Systems Development Corporation
                                                                                          Report No. 26-08-001-01-370
               U.S Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                          Career Systems Development Corporation
                                      Report No. 26-08-001-01-370
                                                       U.S Department of Labor – Office of Inspector General




Executive Summary
The Office of Inspector General (OIG) conducted a performance audit of Career
Systems Development Corporation (CSD). CSD is under contract with the Office of Job
Corps (Job Corps) to operate 10 Job Corps centers for the Department of Labor. Job
Corps requires its center operators to establish procedures and conduct periodic center
audits to ensure integrity, accountability, and prevention of fraud and program abuse.

The audit objectives were to answer the following questions:

           1. Did CSD ensure compliance with Job Corps requirements for managing
              center safety programs?

           2. Did CSD ensure compliance with Job Corps requirements for reporting
              performance?

           3. Did CSD ensure compliance with Job Corps requirements for managing and
              reporting financial activity?

This report is a summary of our audit work conducted at CSD headquarters in
Rochester, New York; the Laredo Job Corps Center (Laredo) in Laredo, Texas; and the
New Haven Job Corps Center (New Haven) in New Haven, Connecticut.

Results

We observed unsafe or unhealthy conditions at New Haven and determined that center
management did not address the conditions with the urgency needed to ensure a safe
environment. These conditions included water-damaged and collapsing ceiling tiles;
mold on student dormitory walls and ceilings; and missing or inoperable emergency exit
signs. At Laredo, required background checks were not conducted for 23 of the 30
student applicants tested. The background check results should have been considered
when selecting applicants for enrollment to ensure a safe environment for all students at
the center.

Furthermore, reported performance was not accurate at Laredo and New Haven.
Student On-Board Strength (OBS), a measure of a center’s ability to operate at full
capacity, was overstated at Laredo. Based on a statistical sample, we estimate that as
many as 27 percent of the 499 students at 95 percent confidence level served by the
center during Program Year (PY) 2005 1 should have been separated at an earlier date
and should not have been included in the center’s OBS calculation after that date.
Vocational completions were overstated at New Haven. Based on a statistical sample,
we estimate that the training records for as many as 46 percent of the 128 vocational
completions at 95 percent confidence level reported for PY 2005 were not consistent

1
    Job Corps Program Year 2005 was July 1, 2005 through June 30, 2006

                                                                    Career Systems Development Corporation
                                                        1                       Report No. 26-08-001-01-370
                                           U.S Department of Labor – Office of Inspector General


with Job Corps requirements because one or more tasks were not completed.
Inaccurate performance reporting impacts management decision making, reimbursed
operating expenses, incentive payments, and option years awarded to contracted
center operators.

These conditions occurred because CSD controls over center safety and performance
reporting were not effective. Nothing came to our attention during our testing to indicate
that CSD did not comply with Job Corps requirements for managing and reporting
financial activity.

CSD initiated corrective action that should address some of the oversight weaknesses
we identified. For example, in 2007, CSD implemented a data integrity plan entitled,
“Quality Assurance Plan and Procedures for Job Corps Student Data.” The plan
defines CSD corporate and center responsibilities and procedures for ensuring student
data integrity.

Recommendations

We made eight recommendations to the National Director, Office of Job Corps.
Foremost among our recommendations was to require CSD to:

      •   Develop corporate-level controls and perform on-site monitoring over all
          centers to identify and correct systemic non-compliance with Job Corps safety
          program requirements.

      •   Improve corporate on-site monitoring, including data integrity audits, to
          effectively identify and correct systemic non-compliance with Job Corps
          performance reporting requirements.

      •   Determine the extent of any overstated OBS and vocational completions at
          each of its centers and pay the Department of Labor (DOL) liquidated
          damages for the overstatements.

Job Corps Response

The Office of Job Corps generally concurred with our recommendations. Job Corps has
obtained documentation of CSD’s corporate controls over the monitoring of its center
safety programs and will monitor New Haven’s safety program closely for one year.
Additionally, Job Corps has obtained documentation of CSD’s corporate controls over
Standard Operating Procedure (SOP) approval and implementation and will ensure
CSD monitors its center data integrity for compliance with Job Corps performance
reporting requirements.

However, Job Corps did not respond directly to our recommendation to require CSD to
determine the extent of any overstated OBS and vocational completions at each of its
centers and pay DOL liquidated damages for the overstatements. Instead, Job Corps’


                                                      Career Systems Development Corporation
                                            2                     Report No. 26-08-001-01-370
                                         U.S Department of Labor – Office of Inspector General


response noted that it had assessed the New Haven Job Corps Center over $25,000 in
liquidated damages and would evaluate all 29 records reviewed by the OIG during this
audit and apply the PRH criteria.

OIG Conclusion

The OIG concludes that these corrective actions are generally appropriate. Job Corps
provided us with documentation supporting that CSD has taken adequate corrective
action to address our six recommendations (recommendations 1, 2, 3, 5, 6, and 7)
directed at improving CSD controls over center safety programs and performance
reporting. We consider these recommendations resolved and closed. Job Corps
agreed with our recommendation number 4 to require CSD to conduct mold testing at
New Haven and evaluate related health risks. We consider this recommendation
resolved but open, pending our receipt of the test results and evaluation. Our
recommendation number 8 to require CSD to determine the extent of any overstated
OBS and vocational completions at each of its centers and pay DOL liquidated
damages for the overstatements remains unresolved, pending Job Corps’ direct
response to the recommendation.




                                                    Career Systems Development Corporation
                                          3                     Report No. 26-08-001-01-370
               U.S Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                          Career Systems Development Corporation
                4                     Report No. 26-08-001-01-370
                                          U.S Department of Labor – Office of Inspector General


U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210


September 30, 2008


                        Assistant Inspector General’s Report



Dr. Esther R. Johnson
National Director
Office of Job Corps
US Department of Labor
200 Constitution Avenue, N.W
Washington, D.C. 20210


The Office of Inspector General (OIG) conducted a performance audit of Career
Systems Development Corporation (CSD). CSD is a privately held Corporation under
contract to operate 10 Job Corps centers for the Department of Labor. Job Corps
requires center operators to establish procedures and conduct periodic center audits to
ensure data integrity, accountability, and prevention of fraud and program abuse.

The audit objectives were to answer the following questions:

      1. Did CSD ensure compliance with Job Corps requirements for managing
         center safety programs?

      2. Did CSD ensure compliance with Job Corps requirements for reporting center
         performance?

      3. Did CSD ensure compliance with Job Corps requirements for managing and
         reporting center financial activity?

CSD should take action to improve its corporate oversight. Center safety inspections,
safety committee meetings, and applicant background checks were not conducted as
required by the Job Corps Policy and Requirements Handbook (PRH). As a result,
unsafe or unhealthy conditions were not addressed with the urgency needed to ensure
a safe environment for students and staff at the center. Additionally, reported
performance was not accurate at both CSD centers reviewed. Inaccurate performance
reporting impacts management decision making, reimbursed operating expenses,
bonus and incentive payments, and option years awarded to contracted center
operators. Nothing came to our attention during our testing to indicate that CSD did not
comply with Job Corps requirements for managing and reporting financial activity.




                                                         Career Systems Development Corporation
                                            5                        Report No. 26-08-001-01-370
                                           U.S Department of Labor – Office of Inspector General


This report is a summary of our audit work conducted at CSD headquarters in
Rochester, New York and two centers operated by CSD; the Laredo Job Corps Center
(Laredo) in Laredo, Texas and the New Haven Job Corps Center (New Haven) in New
Haven, Connecticut. Except where noted, we reviewed center safety, and performance
and financial data for PY 2005. Reported PY 2005 performance for Laredo and New
Haven are provided as Exhibits 1 and 2, respectively.

In September 2007 we issued a report concerning our audit work at Laredo (OIG Report
No. 09-07-002-01-370). That report discussed our findings at Laredo and contained
recommendations to the National Director of Job Corps for corrective action at Laredo.
The National Director concurred with our recommendations and initiated corrective
action.

Additional background information is contained in Appendix A.

We conducted this performance audit in accordance with government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a sufficient basis for our findings and conclusions based on our audit
objectives. Our audit scope, methodology, and criteria are detailed in Appendix B.

Objective 1 – Did CSD ensure compliance with Job Corps requirements for
managing center safety programs?
Fill in Finding for TOC here



We observed unsafe or unhealthy conditions at New Haven and determined that center
management did not address these conditions with the urgency needed to ensure a
safe environment. These conditions included water-damaged and collapsing ceiling
tiles, mold on student dormitory walls and ceilings, and missing or inoperable
emergency exit signs. This occurred because CSD oversight did not provide adequate
assurance that its centers complied with Job Corps requirements established to ensure
student safety. Specifically, New Haven officials did not conduct safety inspections or
maintain a safety committee as required by Job Corps’ PRH, and on-site monitoring by
CSD’s corporate office did not include a review of the center’s safety program to ensure
compliance.

Additionally, Laredo did not conduct required background checks on student applicants
to confirm that the applicants were not on probation, parole, under a suspended
sentence, or under the supervision of any agency because of a court action or
institutionalization. The background check results should have been considered when
selecting applicants for enrollment to ensure a safe environment for all students at the
center. This occurred because Laredo management mistakenly believed that Job
Corps policy allowed students to “self-certify” they were clear of any court actions and
that Texas law prevented them from obtaining background checks on minors.
Moreover, while background checks were reviewed as part of CSD corporate on-site


                                                      Career Systems Development Corporation
                                            6                     Report No. 26-08-001-01-370
                                           U.S Department of Labor – Office of Inspector General


monitoring at Laredo, the non-compliance was not reported or corrected. .

New Haven Was Not in Compliance with Center Safety Requirements

CSD did not ensure New Haven’s safety program complied with Job Corps
requirements. We toured New Haven at the end of PY 2006 to observe conditions at
the center and noted the following unsafe or unhealthy conditions:

   •   Moldy, water-damaged, and missing ceiling tiles in the records office, main
       conference room, and other administrative offices;
   •   Mold on walls and ceilings of two student dormitory bathrooms
   •   Dripping and standing water in the main kitchen and a vocational training
       classroom;
   •   Some emergency exit signs in student dormitories not operable;
   •   Exposed wires on the ground in the walk area between the administration
       building and the dormitories;
   •   Water damaged walls and skylights in student dormitories; and
   •   Strong musty, earthy odors in two student dormitories.


The picture on the right shows mold in a
student dormitory. Several of the student
showers and bathrooms had similar mold
problems. Exposure to certain molds can
cause adverse effects to the nervous system,
allergic reactions, asthma episodes, and
other respiratory problems.




                                         The picture on the left shows an inoperable exit
                                         sign in a dormitory. These exit signs are
                                         critical for escape in fire and other
                                         emergencies.




During our New Haven visit, three incidents underscored the need to identify and
correct unsafe conditions in a timely manner. In the first, OIG and center staff were
working in the Records Management office where a ceiling tile was missing due to water
damage. A softball size piece of ice fell from an air conditioning unit through the hole
created by the missing ceiling tile and almost hit the OIG staff member.


                                                      Career Systems Development Corporation
                                            7                     Report No. 26-08-001-01-370
                                             U.S Department of Labor – Office of Inspector General




The picture on the right shows the missing
ceiling tile with ice again forming on the air
conditioning unit. During our tour of the
center, we noted several areas with missing
tiles due to water damage from air
conditioning units. Missing tiles increase the
risk of an accident occurring due to falling ice
or debris.


In the second incident, we observed a staff office where ceiling tiles had collapsed onto
the desk of the staff member occupying the office. Fortunately, the staff member had
stepped away from the office just before the collapse. The third incident also involved a
collapsing ceiling tile. A ceiling tile in the office assigned to the OIG auditors appeared
water damaged and ready to collapse. When lightly touched, the ceiling tile did in fact
collapse.


The picture on the right shows an example of
ceiling tiles in the Administration building in
danger of collapsing and potentially falling on a
student or staff member. The area below the
tiles was not cordoned off. Throughout the
center, we noted ceiling tiles damaged by water
leakage and needing replacement.




CSD Oversight Was Not Adequate

The unsafe or unhealthy conditions at New Haven occurred because CSD oversight did
not provide adequate assurance that its centers complied with Job Corps requirements
established to ensure student safety. Specifically, New Haven did not conduct required
safety inspections or maintain a safety committee as required by Job Corps, and on-site
monitoring by CSD’s corporate office did not include a review of the center’s safety
program to ensure compliance.

The Job Corps PRH, Chapter 5, requires center operators to develop a safety and
occupational health program for each center. The program must include appointing a
center safety officer and conducting safety inspections. The PRH, Appendix 505 further
requires the center to:

   •   Conduct weekly safety inspections of food handling and recreation areas and
       initiate corrective action;


                                                        Career Systems Development Corporation
                                              8                     Report No. 26-08-001-01-370
                                                            U.S Department of Labor – Office of Inspector General


       •    Conduct monthly safety inspections of dormitories, child development centers,
            health service areas, administrative offices, and other occupied buildings and
            initiate corrective action; and
       •    Establish a safety committee to meet monthly and ensure items identified during
            safety inspections were corrected (meeting documentation must be retained for a
            minimum of 3 years).

New Haven did not comply with these PRH requirements. A safety officer was not
appointed at the center for about half of PY 2005, and during this time, weekly and
monthly safety inspections were not conducted. Also, from February 2006 until at least
the end of our fieldwork in July 2007, required safety committee meetings were not held
to confirm safety concerns were corrected. Due to this non-compliance, we expanded
our audit to include the center’s PY 2006 safety program activities. Table 1 summarizes
New Haven’s non-compliance with safety requirements during PYs 2005 and 2006:

                                                        Table 1

                             New Haven’s Safety Program Did Not Comply
                               With the PRH During PYs 2005 and 2006

                                                   PY 2005 Compliance                   PY 2006 Compliance
PRH Requirement                                    7/1/05-    2/1/06-                    7/1/06-   1/1/07-
                                                   1/31/06    6/30/06                   12/31/06   6/30/07
Safety officer appointed for                        Yes 2       No2                        Yes        No
center
Weekly inspections of food                            Yes                No                Yes           No
handling and recreation areas
Monthly inspections of all                             No                No                 No           No
occupied buildings
Monthly safety committee                              Yes                No                 No           No
meetings

To ensure student safety and health, it is critical that each element of a center’s safety
program work effectively. To illustrate, weekly inspections of food handling and
recreation areas were conducted at New Haven only when the center had an appointed
safety officer. Significant safety concerns were identified during these inspections. For
example, a July 2006 weekly inspection of the center’s food handling areas resulted in
the following food preparation and physical safety concerns:

       •    Temperature readings missing on all refrigerators, freezers and dishwasher;
       •    Thermometers missing from salad bar and juice bar;
       •    Fire exit signs or face plates missing in cafeteria, café and dining room;
       •    Exit from kitchen reduced by bread racks; and
       •    Deep fat fryer leaning.

2
    The Safety Officer left on January 10, 2006. The new Safety Officer was hired June 19, 2006.

                                                                        Career Systems Development Corporation
                                                             9                      Report No. 26-08-001-01-370
                                            U.S Department of Labor – Office of Inspector General


However, these safety concerns were not corrected in a timely manner. The same
concerns were included in the weekly inspection reports through September 2006, for a
total of 12 weeks. Additionally, these conditions may have existed for an extended
period prior to the July 2006 inspection because the weekly inspections were not
conducted during the previous five months. The lack of follow up by a Safety
Committee further limited the center’s ability to correct the safety concerns in a timely
manner. Consistent inspections and Safety Committee oversight would have resulted in
more timely identification and correction of these safety and health concerns.

The lack of corporate oversight at New Haven also contributed to the unsafe and
unhealthy conditions at the center. CSD had not established effective corporate
controls to ensure safety programs were conducted in accordance with the Job Corps
PRH at each of its centers. Although the safety program at Laredo was assessed
during on-site monitoring, the safety program at New Haven was not. At Laredo, CSD
found that weekly and monthly inspections were not occurring as required by the PRH
and initiated corrective action. A similar assessment at New Haven would have had the
same result. Compliance with Job Corps safety program requirements is critical at each
CSD center to ensure safe environments are maintained through timely identification
and correction of unsafe or unhealthy conditions.

Funding Constraints Impacted Center Conditions

Some of the unsafe conditions noted in this report (e.g.; mold, water-damaged ceiling
tiles) relate to major building deficiencies, including roofs and air conditioning units
needing replacement. According to New Haven management, funding constraints
limited CSD’s ability to correct these deficiencies. For example, approved funding to
replace the roof on the administrative building was based on a Job Corps estimate of
$177,000. However, actual bids for the work amounted to more than $400,000 and
CSD could not complete the roof replacement. New Haven has subsequently been
subject to recurring maintenance problems relating to the leaky roof.

The OIG acknowledges that funding constraints prevented CSD from addressing the
root cause of some of the unsafe conditions at New Haven. However, CSD needs to
ensure students are not placed at risk by proactively maintaining center facilities or
closing affected areas rather than performing repairs after unsafe or unhealthy
conditions exist. Conditions such as mold; damaged or missing ceiling tiles; inoperable
or missing exit signs, and inoperable food preparation thermometers can be minimized
or eliminated through compliance with Job Corps requirements for center safety and
health programs.

Applicant Background Checks Not Conducted at Laredo

Laredo did not conduct background checks on student applicants as required by the Job
Corps PRH (Chapter 1, Outreach and Admissions, R4 Section C). Background checks
are conducted to confirm that applicants are not on probation, parole, under a
suspended sentence, or under the supervision of any agency because of a court action


                                                       Career Systems Development Corporation
                                            10                     Report No. 26-08-001-01-370
                                          U.S Department of Labor – Office of Inspector General


or institutionalization. The background check results should have been considered
when selecting applicants for enrollment to ensure a safe environment for all students
and staff at the center.

We judgmentally sampled 30 of the 389 students included in the PY 2005 performance
data at Laredo to determine whether background checks were conducted and
considered prior to their enrollment at the center. Background checks were not
conducted for 23 or 77 percent of the 30 students tested. As such, Laredo did not
comply with the PRH and could not assure applicants enrolled at the center were not
wanted by law enforcement agencies, on probation or parole, under a suspended
sentence, or under supervision of any agency as a result of a court action or
institutionalization.

This occurred because Laredo management believed that the PRH allowed students to
“self-certify” they were clear of any court actions and believed Texas law prevented
them from obtaining background checks on minors. During the audit, Laredo
management acknowledged that they misinterpreted the PRH and Texas requirements
and would begin obtaining background checks on student applicants.

Moreover, while the CSD corporate assessment of Laredo performed in September
2006 did review background checks, it did not include recommendations to comply with
the PRH. CSD should assess whether all its centers with Outreach and Admissions
responsibilities conduct the required background checks. Compliance with this
requirement is also critical to ensure a safe environment at each CSD center.


Recommendations

We recommend that the National Director, Office of Job Corps, require CSD to:

      1. Develop corporate-level controls and perform on-site monitoring over all
         centers to identify and correct systemic non-compliance with Job Corps safety
         program requirements and periodically test those controls to determine
         effectiveness.

      2. Mandate that applicant background checks be conducted for new students in
         accordance with Job Corps requirements and develop corporate-level
         controls and perform on-site monitoring over all CSD centers with Outreach
         and Admissions responsibilities to confirm compliance. .

      3. Periodically validate whether the safety program at New Haven is managed in
         accordance with Job Corps requirements.

      4. Conduct mold testing at New Haven and evaluate related health risks.

In our report on Laredo, we made recommendations to the National Director of Job
Corps concerning corrective action needed at Laredo. These recommendations

                                                     Career Systems Development Corporation
                                           11                    Report No. 26-08-001-01-370
                                            U.S Department of Labor – Office of Inspector General


included requiring Laredo to obtain background checks on all incoming students. The
National Director concurred with this recommendation and initiated corrective action.

Job Corps Response

Job Corps concurred with the recommendations.

For Recommendation 1, Job Corps provided documentation requiring all Job Corps
Regional Directors to provide quarterly reports for a period of 1 year to the National
Office to validate CSD is conducting on-site monitoring at all CSD centers.

Further, CSD provided documentation regarding CSD’s established corporate controls,
on-site monitoring of the Job Corps safety program, and the CSD quality assurance
plan and procedures. This documentation included corrective action taken by CSD and
current internal controls that identify and correct issues while ensuring compliance with
Job Corps safety program requirements.

For Recommendation 2, Job Corps provided documentation that the lack of background
checks for incoming students has been corrected. Job Corps’ Dallas Regional Office as
well as CSD corporate staff identified and corrected the problem during recent Job
Corps monitoring visits.

For Recommendation 3, Job Corps provided documentation that New Haven’s safety
program will be included in the quarterly reporting to Job Corps and will periodically
validate CSD monitoring of its centers.

For Recommendation 4, the National Director required CSD to conduct mold testing at
New Haven with the results to be reported to Job Corps. Job Corps also instructed
CSD to provide the potential health effects and the methods and costs for the mold
eradication.

OIG Conclusion

We consider the actions Job Corps initiated appropriate to the recommendations.
Recommendations 1, 2, and 3 are resolved and closed. Recommendation 4 is
resolved but open, pending our receipt of the test results and evaluation.


Objective 2 – Did CSD ensure compliance with Job Corps requirements for
reporting center performance?
Fill in Finding for TOC here

Reported performance was not accurate at the two CSD centers reviewed for this audit
objective. Student On-Board Strength (OBS) was overstated at Laredo. Based on a
statistical sample, we estimate that as many as 27 percent of the 499 students at 95
percent confidence level served by the center during PY 2005 should have been
separated at an earlier date and should not have been included in the center’s OBS
calculation after that date. Vocational completions were overstated at New Haven.

                                                       Career Systems Development Corporation
                                            12                     Report No. 26-08-001-01-370
                                           U.S Department of Labor – Office of Inspector General


Based on a statistical sample, we estimate that the training records for as many as 46
percent of the 128 vocational completions at 95 percent confidence level reported for
PY 2005 were not consistent with PRH requirements because one or more tasks were
not completed. Inaccurate reporting of center performance impacts Job Corps and
CSD decision making. Job Corps and CSD are also impacted financially because
reimbursed operating expenses, bonus and incentive payments, and option years
awarded to contracted center operators are based on reported performance.

These conditions occurred because CSD had not established effective corporate
controls to ensure center compliance with Job Corps requirements for reporting
performance. Specifically, CSD corporate oversight did not ensure (1) Standard
Operating Procedures (SOPs) for performance data gathering and reporting were
developed and implemented by each of its centers and (2) on-site monitoring was used
effectively to identify and correct systemic non-compliance.

Because these are weaknesses in corporate oversight, it is likely similar problems
existed at other CSD centers. In fact, we found similar performance data reliability
problems during a hotline complaint audit we conducted at CSD’s San Diego Job Corps
center. We reported in FY 2005 that both OBS and vocational completions were
significantly overstated (OIG Report No. 09-05-004-03-370).

OBS Overstated at Laredo

Laredo management did not report student attendance as required by the Job Corps
PRH. The PRH, Chapter 6 establishes criteria for student attendance and leave and
requires students to be separated from the program if unauthorized leave exceeds
certain standards. Student attendance is recorded in the Job Corps Center Information
System (CIS), which calculates center OBS. Job Corps defines OBS as “an efficiency
measure that depicts the extent to which centers operate at full capacity”. Further, the
PRH, Chapter 6, Section 6.1 requires center operator to separate students from the
program if the students are absent from training in excess of certain standards.

We statistically sampled 117 of the 499 students served by the center during PY 2005.
In 52, or 44 percent of the 117 student files tested, student attendance and reported
leave were not documented as required by PRH Chapter 6. Moreover, 25, or 21
percent of the 117 students should have been separated at an earlier date and should
not have been included in the center’s OBS calculation after that date. We determined
that Laredo management retained the 25 students 1,367 days in violation of the PRH,
which overstated OBS. Projecting our statistical sample results to the 499 students
served, we expect with a 95 percent confidence level (sampling error +/- 3.19 percent)
that as many as 133, or 27 percent, of the students should have been separated at an
earlier date and should not have been included in the center’s OBS calculation after that
date.

CSD contracts with DOL state that liquidated damages will be assessed for failure to
comply with regulations for separating students. CSD must pay a refundable cost to


                                                      Career Systems Development Corporation
                                           13                     Report No. 26-08-001-01-370
                                            U.S Department of Labor – Office of Inspector General


DOL for each day a student is retained in violation of Job Corps requirements. The
original Laredo contract established this refundable cost at the cost per student day,
which was $61.72 for the center. On June 9, 2008, the Laredo contract was modified to
reduce the liquidated damages to 15 percent of the cost per student day, or $9.26
($61.72 x 15%). Table 2 summarizes the PRH violations and our liquidated damages
calculation for the 25 students with separation violations we identified during our testing.

                                          Table 2

          Liquidated Damages Due To PRH Student Separation Violations

                                           No. of   No. of          Liquidated Damages
PRH Violation                              Students Days            (No. days x $9.26)
Students not Absent Without Leave              4      649                   $6,010
(AWOL) separated after exceeding 6
consecutive AWOL days or 12 days in
180-day period
Unsupported attendance at Work-                   12       455                $4,213
Based Learning activities prior to
separation
Students not AWOL separated due to                 7       221                $2,046
unrecorded absences
Unallowable reasons for unpaid leave               2        42                $ 389
prior to separation
Totals                                            25      1,367               $12,658

Our liquidated damages calculation was based on the 25 students with separation
violations in our statistical sample of 117 students. Projecting these liquidated damages
to the 499 students served in PY 2005, we estimate that as much as $81,784 may be
owed to DOL for Laredo students not separated as required by the Job Corps PRH.

Vocational Completions Overstated at New Haven

New Haven management reported students with incomplete Training Achievement
Records (TARs) as vocational completers in its reported performance for PY 2005. The
Job Corps PRH requires centers to ensure student progress is documented on TARs as
progress occurs. Instructors are required to document that students are proficient at all
tasks listed on the TARs. Changes to the tasks listed on the TARs must be approved
by Job Corps.

We statistically sampled 75 of the 128 students reported by New Haven as vocational
completers during PY 2005. We found that 29, or 39 percent of the TARs tested, were
not consistent with PRH requirements because one or more tasks were not completed.
This significantly overstated vocational completions. Projecting our statistical sample
results to the 128 vocational completions reported for PY 2005, we expect with a 95



                                                       Career Systems Development Corporation
                                             14                    Report No. 26-08-001-01-370
                                          U.S Department of Labor – Office of Inspector General


percent confidence level (sampling error +/- 3.64 percent) that as many as 59, or 46
percent, did not complete the vocation as required.

The Job Corps PRH requires that liquidated damages of $750 be assessed for each
improper vocational completion. As such, CSD owes DOL $21,750 for the 29 students
we identified as having incomplete TARs. Table 3 summarizes the specific vocations
and our liquidated damages calculation:

                                        Table 3

                 Liquidated Damages Due To PRH TAR Violations

Vocational                   No. Students With               Liquidated Damages
Occupation                   Incomplete TARs                 (No. students x $750)
Nursing Assistant                   25                              $18,750
Maintenance                          1                              $ 750
Carpentry                            1                              $ 750
EKG Technicians                      1                              $ 750
Phlebotomy Technician                1                              $ 750
Totals                              29                              $21,750

Our liquidated damages calculation was based on the 29 students with incomplete
TARs in our statistical sample of 75 students. Projecting these liquidated damages to
the 128 students reported as vocational completers for PY 2005, we estimate that as
much as $44,250 may be owed to DOL for New Haven students with incomplete TARs.

Controls Over Performance Information Need Improvement

Inaccurate reporting of center performance impacts Job Corps and CSD decision
making. Job Corps and CSD are also impacted financially because reimbursed
operating expenses, bonus and incentive payments, and option years awarded to
contracted center operators are based on reported performance. As such, CSD needs
to improve its controls over performance information. The overstatements noted in this
report occurred because CSD had not established effective controls to ensure center
compliance with Job Corps requirements for reporting performance. Specifically, CSD
corporate oversight did not ensure (1) Standard Operating Procedures (SOPs) for
performance data gathering and reporting were implemented by each of its centers and
(2) on-site monitoring was used effectively to identify and correct systemic non-
compliance.

Standard Operating Procedures

SOPs are a critical management control because they provide center staff specific
guidance on responsibilities and procedures for ensuring compliance with the PRH. Job
Corps requires center operators to establish SOPs and submit them to Job Corps for
approval within 90 days of contract award. Updates and revisions are to be submitted

                                                     Career Systems Development Corporation
                                           15                    Report No. 26-08-001-01-370
                                            U.S Department of Labor – Office of Inspector General


as changes to the SOPs occur. CSD did develop and submit SOPs to Job Corps for
both the Laredo and New Haven centers. However, CSD did not ensure the SOPs
were approved and implemented at Laredo. Laredo staff could not provide us with any
SOPs (outdated or current) for documenting and reporting student attendance. We
believe the lack of SOPs at Laredo contributed to the center’s overstated OBS because
staff did not have adequate guidance for documenting and reporting student attendance
in accordance with the PRH.

According to CSD management, SOPs were not implemented at Laredo because Job
Corps did not respond to their submission of the Laredo SOPs for approval. Job Corps
regional management confirmed that a review and approval of the Laredo SOPs was, in
error, not conducted. We acknowledge that Job Corps’ error contributed to the lack of
SOPs at Laredo. However, CSD still needs to develop controls to ensure SOPs are
implemented by each of its centers. CSD should have followed up with Job Corps
regional management when SOP review and approvals were not timely.

On-Site Monitoring

Incomplete on-site monitoring of center compliance with Job Corps requirements also
contributed to the inaccurate performance information reported by the Laredo and New
Haven centers. The PRH requires center operators to establish procedures and
conduct periodic audits to ensure integrity, accountability, and prevention of fraud and
program abuse. CSD complies with this requirement, in part, by conducting data
integrity audits at each of its centers. The focus of these audits is the appropriate use of
the student leave system and verification of completed TARs in regard to training and
documentation.

We found that, while CSD did perform a data integrity audit at Laredo which included
PY 2005 data, it did not detect the data problems that existed. As a result, the student
attendance and leave problems noted in this report were not corrected by CSD.
Additionally, the PY 2005 data integrity audit at New Haven did not identify and resolve
TAR deficiencies in accordance with the PRH. The CSD audit determined that 7, or 16
percent of the 43 TARs tested were invalid due to task completion dates coinciding with
dates the students were on leave or AWOL. An additional 5 TARs were improperly
determined to be valid even though tasks were not documented as completed.

According to CSD’s New Haven data integrity report, these 5 incomplete Nurse
Assistant TARs were accepted as valid because the incomplete tasks (CPR/First Aid
competencies) were not required by the State of Connecticut to be a certified Nurse
Assistant. The number of incomplete CPR/First Aid tasks noted in the data integrity
report for the 5 TARs ranged between zero and 17 tasks. There were 11 Nurse
Assistant students that had zero tasks noted as incomplete.

The variance in completed CPR/First Aid tasks occurred because the center contracted
the Nurse Assistant training to three different providers and each provider had its own
curriculum. CSD mistakenly believed meeting State requirements met Job Corps


                                                       Career Systems Development Corporation
                                            16                     Report No. 26-08-001-01-370
                                            U.S Department of Labor – Office of Inspector General


requirements. We consider the 5 Nurse Assistant TARs identified by the CSD audit and
the 25 Nurse Assistant TARs included in our testing (see Table 3) to be invalid because
CSD did not obtain Job Corps approval to exclude the CPR/First Aid tasks listed on the
TAR.

The PRH states that prior to any changes made to the TARs, approval or a waiver must
be given by the National Director of Job Corps. CSD did not obtain such an approval or
waiver. According to Job Corps regional management, training tasks are not limited by
State certification requirements because students do not always graduate and work in
the State where their Job Corps center is located.

In addition, we consider an additional 6 TARs we reviewed as invalid because one or
more of the tasks on the TAR were not completed. CSD management believed this was
an oversight since the TARs were reviewed and initialed by supervisory personnel.
Improved CSD corporate controls are needed to ensure center compliance with Job
Corps requirements for reporting performance. Inaccurate performance reporting may
result in management and Job Corps decisions based on unreliable information. For
example, overstated OBS may fail to disclose that a center is not operating at full
capacity. As a result, the center operator or Job Corps may not take action to ensure
the optimal numbers of students are being served. Similarly, overstated vocational
completions may fail to disclose that students are not receiving the training required to
achieve proficiency required by Job Corps in their chosen trade. Again, the center
operator or Job Corps may not take action to ensure the required training is provided.
Center performance is also the basis for monetary incentives paid to center operators.

CSD Initiated Corrective Action

CSD initiated corrective action to address some of the control weaknesses we
identified. The OIG found similar performance data reliability problems during a hotline
complaint audit we conducted at CSD’s San Diego Job Corps Center (OIG Report No.
09-05-004-03-370). In PY 2005, we reported that both OBS and vocational completions
were significantly overstated. In response to our audit of the hotline complaint and
subsequent audits performed by Job Corps, CSD enhanced its management controls to
promote an enterprise-wide focus on data integrity and quality outcomes. In calendar
year 2006, CSD created a Corporate Director of Quality Assurance position that reports
directly to the Chief Executive Officer. The Quality Assurance Director is responsible for
communicating and maintaining internal controls, providing technical assistance and
training, and auditing and requiring corrective action to promote data integrity consistent
with Job Corps requirements. Additionally, in September 2007 CSD implemented a
data integrity plan titled, “Quality Assurance Plan and Procedures for Job Corps Student
Data”. The plan defines CSD corporate and center responsibilities and procedures for
ensuring student data integrity.




                                                       Career Systems Development Corporation
                                            17                     Report No. 26-08-001-01-370
                                                   U.S Department of Labor – Office of Inspector General


Other Performance Data

We tested supporting documentation at Laredo and New Haven for the following
performance measures 3 and concluded that the tested data was adequately supported:

    •   General Education Diploma (GED)/High School Diploma Attainment (Laredo and
        New Haven)
    •   90-Day Commitment (Laredo and New Haven)
    •   Vocational Completions (Laredo)
    •   OBS (New Haven)
    •   Post Enrollment Job Placement (Laredo)
    •   Graduate Average Wage (Laredo)

Our methodology for evaluating CSD performance data and the controls at both centers
and corporate headquarters are summarized in Appendix B, pages 24 to 26. The
universe, sample sizes, and exceptions for our testing of New Haven and Laredo’s
performance measure data are summarized in Table B-1, page 35.


Recommendations

We recommend that the National Director, Office of Job Corps, require CSD to:

        5. Establish corporate controls to require SOPs be approved by Job Corps
           before being implemented at all CSD centers.

        6. Improve corporate on-site monitoring, including data integrity audits, to
           effectively identify and correct systemic non-compliance with Job Corps
           performance reporting requirements.

        7. Validate that student vocational training at New Haven is completed and
           reported in accordance with Job Corps requirements.

        8. Determine the extent of any overstated OBS and vocational completions at
           each of its centers and pay DOL liquidated damages for the overstatements.
           This includes paying liquidated damages of $21,750 for overstated vocational
           completions at New Haven.

In our report on Laredo, we made recommendations to the National Director of Job
Corps concerning corrective action needed at Laredo. These recommendations
included improving center controls over student attendance and recovering liquidated
damages for the specific incidences where Laredo did not comply with Job Corps
requirements for student attendance. The National Director concurred with our Laredo


3
  Post Enrollment Job Placement and Graduate Average Wage were not tested at New Haven because CSD was not
the placement contractor for the center.

                                                               Career Systems Development Corporation
                                                    18                     Report No. 26-08-001-01-370
                                          U.S Department of Labor – Office of Inspector General


recommendations and initiated corrective action, including recovering liquidated
damages.

Job Corps Response

The National Director generally concurred with these recommendations.

For Recommendation 5, Job Corps provided documentation identifying CSD’s
established corporate controls to require SOPs to be approved by Job Corps prior to
implementing at all CSD centers. As of August 28, 2008, corrective action has been
completed at the Laredo Job Corps Center. All SOP’s have been approved.

For Recommendation 6, Job Corps provided documentation supporting that CSD now
ensures compliance with Job Corps performance reporting requirements through its
comprehensive Quality Assurance System consisting of three main features: Corporate
Director of Quality Assurance, Quality Assurance Plan and Procedure and Internal
Controls Auditing. This establishes a framework for properly handling and recording
student data, especially data connected to performance outcomes. Further, internal
audits and corporate assessment have been performed.


For Recommendation 7, Job Corps provided documentation supporting that its Boston
Regional office would monitor performance of New Haven’s compliance Job Corps
performance reporting requirements for student vocational training.

Further, as part of the regular program assessments, the Boston Regional Office
conducted the New Haven Data Integrity Audit in August 2007. The audit included a
review of a sample of students’ GED/HSD, Career Technical Training and leave records
which resulted in an assessment of liquidated damages for over $25,000.

For Recommendation 8, Job Corps did not provide a response as to whether it would
require CSD to determine the extent of any overstated OBS and vocational completions
at each its centers and pay DOL liquidated damages. Instead, Job Corp stated it has
already assessed the New Haven Job Corps Center over $25,000 in liquidated
damages. In addition, Job Corps stated it would evaluate all 29 records reviewed by the
OIG during this audit and apply the PRH criteria.

OIG Conclusion

The OIG concludes that the corrective actions are appropriate for recommendations 5,
6, and 7. These recommendations are resolved and closed.

Recommendation 8 is considered unresolved until Job Corps informs the OIG whether
it will require CSD to determine the extent of any overstated OBS and vocational
completions at each of its centers and pay DOL liquidated damages.



                                                     Career Systems Development Corporation
                                           19                    Report No. 26-08-001-01-370
                                         U.S Department of Labor – Office of Inspector General


Objective 3 – Did CSD ensure compliance with Job Corps requirements for
managing and reporting center financial activity?

Nothing came to our attention to indicate that Laredo and New Haven did not comply
with Job Corps requirements for managing and reporting financial activity. Our
methodology for evaluating CSD costs and controls at both centers and corporate
headquarters are summarized in Appendix B, pages 21 to 23.




Elliot P. Lewis




                                                    Career Systems Development Corporation
                                         20                     Report No. 26-08-001-01-370
           U.S Department of Labor – Office of Inspector General




Exhibits




                      Career Systems Development Corporation
           21                     Report No. 26-08-001-01-370
               U.S Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                          Career Systems Development Corporation
                22                    Report No. 26-08-001-01-370
                                             U.S Department of Labor – Office of Inspector General


                                                                                       Exhibit 1
                     Laredo Job Corps Center
                        Program Year 2005
              Reported Performance Measures Results


Outreach & Admissions
  Total Female Arrivals                                                         103
  Total Arrivals                                                                263


Training
  High School Diplomas / GED’s                                                   97
  Vocational Completions                                                        169
  Literacy Gain                                                                 132
  Numeracy Gain                                                                 133


Placement
  Job Training Matches                                                           86
  Post Enrollment                                                               177
  Graduate Placements                                                           152
  Graduate Average Wage                                                        $7.34
  No. of Graduates Still in Job after 6 months                                   43
  6 Months Earning                                                           $336.91
  No. of Graduates Still in Job after 12 months                                  40




                                                        Career Systems Development Corporation
                                             23                     Report No. 26-08-001-01-370
               U.S Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                          Career Systems Development Corporation
                24                    Report No. 26-08-001-01-370
                                U.S. Department of Labor – Office of Inspector General


                                                                          Exhibit 2
                  New Haven Job Corps Center
                       Program Year 2005
             Reported Performance Measures Results


Training
  High School Diplomas /GED’s                                        51
  Vocational Completions                                            128
  Literacy Gain                                                      56
  Numeracy Gain                                                      79




                                            Career Systems Development Corporation
                                 25                     Report No. 26-08-001-01-370
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                           Career Systems Development Corporation
                26                     Report No. 26-08-001-01-370
             U.S. Department of Labor – Office of Inspector General




Appendices




                         Career Systems Development Corporation
              27                     Report No. 26-08-001-01-370
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                           Career Systems Development Corporation
                28                     Report No. 26-08-001-01-370
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix A
Background

Job Corps is a national program, administered by the U.S. Department of Labor (DOL),
Office of Job Corps, which offers a comprehensive array of career development
services to at-risk young women and men, ages 16 to 24, to prepare them for
successful careers. Job Corps was established by the Economic Opportunity Act of
1964 and is currently authorized under the Workforce Investment Act of 1998, Title I-C.
The Job Corp mission is to assist young people in acquiring skills needed to achieve
their career goals, live independently, and support them in entering and remaining in
meaningful jobs or further their education.

CSD is headquartered in Rochester, New York and is a wholly-owned subsidiary of Owl
Group. With the exception of a vocational assessment program operating in Rochester,
New York, operating Job Corps centers is CSD’s only business. CSD’s annual contract
amounts for the Job Corps program total approximately $117 million per year.

CSD operates 10 Job Corps Centers under contract with the Department of Labor,
Office of Job Corps. The locations of the centers operated by CSD are:

Laredo, Texas
New Haven, Connecticut
Sacramento, California
San Jose, California
San Diego, California
Cassadaga, New York
St. Paul, Minnesota
Bangor, Maine
New Orleans, Louisiana
Morganfield, Kentucky (operated in joint venture with Del-Jen, Inc.)

The two centers we visited, Laredo and New Haven, involve annual expenditures of
$5.4 million and $5.7 million, respectively. Both Centers serve residential and non-
residential students. Laredo’s capacity for training students is 250 and New Haven’s
training capacity is 200 students.




                                                      Career Systems Development Corporation
                                           29                     Report No. 26-08-001-01-370
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                           Career Systems Development Corporation
                30                     Report No. 26-08-001-01-370
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

The audit objectives were to answer the following questions:

     1. Did CSD ensure compliance with Job Corps requirements for managing center
        safety programs?

     2. Did CSD ensure compliance with Job Corps requirements for reporting center
        performance?

     3. Did CSD ensure compliance with Job Corps requirements for managing and
        reporting center financial activity?

We added the objective relating to center safety programs during our fieldwork at the
New Haven Job Corps Center. While at the center, we identified potentially unsafe and
unhealthy conditions. We informed CSD and Job Corps management about the
conditions and determined that an audit objective to assess corporate and center
controls over center safety was needed.

Scope

This report is a summary of our audit work conducted at CSD headquarters in
Rochester, New York and two centers operated by CSD, the Laredo Job Corps Center
in Laredo, Texas and the New Haven Job Corps Center in New Haven, Connecticut.
Except where noted, we reviewed safety, performance, and financial data for Laredo
and New Haven for PY 2005, which began July 1, 2005, and ended June 30, 2006.

In September 2007, we issued a report concerning our work at Laredo (OIG Report No.
09-07-002-01-370). That report discussed our findings at Laredo and contained
recommendations to the National Director of Job Corps for corrective action at Laredo.
The National Director concurred with our recommendations and initiated corrective
action.

We conducted this performance audit in accordance with government auditing
standards. Those standards require that we plan and perform the audits to obtain
sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provided a reasonable basis for our findings and conclusions based on our audit
objectives.

Methodology

To accomplish our audit objectives, we obtained an understanding of applicable laws,
regulations and Job Corps policies and procedures. We also obtained an


                                                      Career Systems Development Corporation
                                           31                     Report No. 26-08-001-01-370
                                          U.S. Department of Labor – Office of Inspector General


understanding of CSD’s processes, policies, and procedures for managing center safety
and reporting financial and performance information to Job Corps. We interviewed CSD
corporate officials at CSD headquarters in Rochester, New York, and performed
telephone interviews with CSD corporate officials in Irvine, California.

At corporate headquarters, we performed walk-throughs of CSD’s corporate processes
and identified and evaluated CSD internal controls over financial and performance
reporting. We judgmentally selected payroll and other expense transactions to
determine whether identified controls were in place and working. We assessed risks
related to financial and performance misstatement and evaluated CSD’s overall control
environment.

We selected two CSD center locations for detailed testing of financial and performance
data: Laredo, Texas and New Haven, Connecticut. Our methodology for each center is
described as follows:

Laredo

At Laredo, we identified available policies and procedures and performed walk-throughs
to identify controls over center safety and performance and financial reporting.

For center safety, we evaluated the results of corporate assessments on center safety
processes, interviewed appropriate center officials, and performed a physical review of
center facilities. We also tested a judgmental sample of 30 students for compliance with
Job Corps requirements for background checks.

For performance reporting, we performed an overall risk assessment and then selected
a judgmental sample of 30 students to test. On this sample, we determined if identified
controls were in place and working. Based on the results of this test, we identified
control problems in student accountability. To quantify the effect, we selected a
statistical sample of 117 of 499 students who were present at Laredo during PY 2005.
We used a sampling confidence level of 95 percent. We tested the student files for
compliance with the PRH regarding student leave and student accountability.

For financial activity, we reconciled Laredo’s costs reported to Job Corps to CSD’s
general ledger for each cost category and further reconciled cost reported to the public
vouchers. We reviewed CSD’s general ledger for unusual and unallowable cost and
specifically reviewed a judgmental sample adjusting journal entries made to CSD’s
general ledger. We used our judgmental samples of Laredo’s personnel and non-
personnel costs selected at CSD headquarters to further evaluate financial reporting.

New Haven

At New Haven, we identified policies and procedures and performed walk-throughs to
identify controls over center safety and performance and financial reporting.



                                                      Career Systems Development Corporation
                                           32                     Report No. 26-08-001-01-370
                                          U.S. Department of Labor – Office of Inspector General


For center safety, we reviewed corporate on-site monitoring to determine whether CSD
assessments adequately addressed center safety. We also reviewed New Haven’s
safety committee and inspections activities for PRH compliance. Our review in this area
included both PY 2005 and PY 2006 safety program activities.

For performance data, we performed an overall risk assessment and then selected a
judgmental sample of 20 students to test. On this sample, we determined if identified
controls were in place and working. Based on the results of this test we identified
control problems in vocational completions. To quantify the effect, we selected a
statistical sample of 75 of 128 students who completed vocations at New Haven during
PY 2005. We used a sampling confidence level of 95 percent. We tested the student
files for compliance with the PRH regarding vocational completions.

Further, due to problems found in student accountability at other CSD centers, we
selected a statistical sample of 114 of 443 students who were present at New Haven
during PY 2005. We examined these files for compliance with the PRH regarding
student leave and student accountability.

For financial activity, we reconciled New Haven’s costs reported to Job Corps to CSD’s
general ledger for each cost category and further reconciled cost reported to the public
vouchers. We reviewed CSD’s general ledger for unusual and unallowable cost. From
the general ledger, we selected 30 expense transactions and tested the transactions to
determine if controls were in place and working. We then used dollar-unit sampling to
select 262 personnel transactions, and 115 non-personnel transactions to test in detail.
For these transactions, we verified that the cost were reasonable, allowable and
allocable.

Table B-1 on page 35 summarizes the universe, sample sizes, and exceptions for our
testing of New Haven and Laredo’s performance data.

 In planning and performing our audit, we considered internal controls related to CSD’s
compliance with Job Corps requirements for managing center safety programs,
reporting center performance, and managing and reporting center financial activity. We
obtained an understanding of CSD’s internal controls, determined whether internal
controls had been placed in operation, and assessed control risk in order to determine
our auditing procedures for the purpose of achieving our objective. Because of inherent
limitations in internal controls, misstatements, losses, or noncompliance may
nevertheless occur and not be detected. The objective of our audit was not to provide
assurance on the internal controls. Consequently, we did not express an opinion on the
internal controls as a whole, but rather how they related to our objective. Therefore, we
evaluated the internal controls as they pertained to CSD’s managing center safety
programs, reporting center performance, and managing and reporting center financial
activity.

To achieve our objectives we relied on computer-generated data contained in the
general ledger. We assessed and conducted sufficient test of the data and found them


                                                      Career Systems Development Corporation
                                           33                     Report No. 26-08-001-01-370
                                           U.S. Department of Labor – Office of Inspector General


to be adequate. Based on these tests, we conclude the data are sufficiently reliable to
be used in meeting the audit objectives. .

Criteria

We used the following criteria to perform this audit:

   •   Federal Acquisition Regulations
   •   Job Corps Policy and Requirements Handbook
   •   Laredo and New Haven Job Corps Contracts




                                                        Career Systems Development Corporation
                                            34                      Report No. 26-08-001-01-370
                                             U.S. Department of Labor – Office of Inspector General


                                                                                         Table B-1

                     Career Systems Development Corporation
                                Program Year 2005
                          Performance Measures Testing


                          Student Achievement and Attendance

                     New Haven Job Corps                        Laredo Job Corps
                           Center                                    Center
                   Total                                Total
    Performance              Sample                                Sample
                  Student                Exceptions    Student                 Exceptions
      Measure                 Size                                  Size
                  Universe                             Universe
     GED/HSD
                     51        20            0             97         30             0
     Attainment
     Vocational
                    128        75            29           169         30             0
    Completions
      90-Day
                    360        20            0            421         30             0
    Commitment

       OBS          443        114           0            499        117            25



                                        Job Placement*

                                                  Laredo Job Corps
                                                       Center
                                           Total      Sample
                     Performance                       Size
                                          Student                 Exceptions
                       Measure
                                          Universe
                  Post Enrollment Job
                                            86           30            0
                      Placement
                      Graduate
                                            152          30            0
                    Average Wage


* Post Enrollment Job Placement and Graduate Average Wage were not tested at New
Haven because CSD was not the placement contractor for the center.




                                                         Career Systems Development Corporation
                                              35                     Report No. 26-08-001-01-370
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                           Career Systems Development Corporation
                36                     Report No. 26-08-001-01-370
                                   U.S. Department of Labor – Office of Inspector General


                                                                          Appendix C
Acronyms and Abbreviations

AWOL            Absent With Out Leave
CIS             Center Information System
CSD             Career Systems Development Corporation
DOL             U.S. Department of Labor
GED             General Education Diploma
Job Corps       Office of Job Corps
Laredo          Laredo Job Corps Center
OBS             On-Board Strength
OIG             Office of Inspector General
PRH             Policy and Requirements Handbook
PY              Program Year


.-




                                               Career Systems Development Corporation
                                    37                     Report No. 26-08-001-01-370
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                           Career Systems Development Corporation
                38                     Report No. 26-08-001-01-370
                                     U.S. Department of Labor – Office of Inspector General


                                                                            Appendix D
Job Corps Response to Draft Report




                                                 Career Systems Development Corporation
                                      39                     Report No. 26-08-001-01-370
U.S. Department of Labor – Office of Inspector General




            Career Systems Development Corporation
 40                     Report No. 26-08-001-01-370
U.S. Department of Labor – Office of Inspector General




            Career Systems Development Corporation
 41                     Report No. 26-08-001-01-370
U.S. Department of Labor – Office of Inspector General




            Career Systems Development Corporation
 42                     Report No. 26-08-001-01-370
U.S. Department of Labor – Office of Inspector General




            Career Systems Development Corporation
 43                     Report No. 26-08-001-01-370
U.S. Department of Labor – Office of Inspector General




            Career Systems Development Corporation
 44                     Report No. 26-08-001-01-370
U.S. Department of Labor – Office of Inspector General




            Career Systems Development Corporation
 45                     Report No. 26-08-001-01-370
U.S. Department of Labor – Office of Inspector General




            Career Systems Development Corporation
 46                     Report No. 26-08-001-01-370
                                   U.S. Department of Labor – Office of Inspector General




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:       http://www.oig.dol.gov/hotlineform.htm
Email:        hotline@oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210




                                               Career Systems Development Corporation
                                    47                     Report No. 26-08-001-01-370
